                     OFFICE   OF   INSPECTOR GENERAL




Audit Report                                                  2014-FMIC-B-014




  Opportunities Exist to Enhance the
 Onsite Reviews of the Reserve Banks’
     Wholesale Financial Services




                           September 30, 2014


               BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                    CONSUM ER FIN ANC IAL PR OTEC TION B UR EAU
Report Contributors
  James Keegan, OIG Manager
  Chie Hogenmiller, Project Lead
  Jennifer Ksanznak, Auditor
  Bettye Massenburg, Auditor
  Cynthia Gray, Senior OIG Manager for Financial Management and Internal Controls
  Melissa Heist, Associate Inspector General for Audits and Evaluations


Abbreviations
  Board                      Board of Governors of the Federal Reserve System

  COSO                       Committee of Sponsoring Organizations of the Treadway Commission

  Dodd-Frank Act             Dodd-Frank Wall Street Reform and Consumer Protection Act

  Federal Reserve System     Board of Governors of the Federal Reserve System and Federal Reserve Banks

  FMI                        financial market infrastructure

  FMU                        financial market utility

  NSS                        National Settlement Service

  PSR policy                 Federal Reserve Policy on Payment System Risk

  RBOPS                      Division of Reserve Bank Operations and Payment Systems

  Reserve Bank               Federal Reserve Bank

  WPO                        Wholesale Product Office
                                        Executive Summary:
                                        Opportunities Exist to Enhance
                                        the Onsite Reviews of the Reserve
                                        Banks’ Wholesale Financial
                                        Services
2014-FMIC-B-014                                                                                                 September 30, 2014

 Purpose                                                 Finding

 The Federal Reserve System comprises the                We did not note any deficiencies regarding the efficiency and effectiveness of
 Board of Governors of the Federal Reserve               the FMI Oversight group’s onsite review activities for wholesale financial
 System (Board) and the 12 Federal Reserve               services. We found that RBOPS uses offsite monitoring, ongoing
 Banks (Reserve Banks). The Reserve Banks                communication, onsite reviews, and assistance from the General Auditors at
 provide wholesale financial services to                 the Reserve Banks to provide oversight of the Reserve Banks’ wholesale
 depository institutions, the U.S. government, and       financial services. The FMI Oversight group also recently changed its onsite
 foreign institutions. The Board’s Division of           review from a triennial geographical approach to an annual functional
 Reserve Bank Operations and Payment Systems             approach across the entire wholesale financial services system.
 (RBOPS) oversees the policies and operations of
 the Reserve Banks. As such, our objective for           The FMI Oversight group uses a risk-based planning process and the Federal
 this audit was to assess the extent and                 Reserve Policy on Payment System Risk for guidance when assessing
 effectiveness of RBOPS’s oversight of the               wholesale financial services. We found, however, that the group does not
 Reserve Banks’ wholesale financial services.            have comprehensive formal policies and procedures that guide the execution
                                                         and documentation of its onsite review of wholesale financial services. In
                                                         addition, we noted that a small percentage of onsite review documentation
 Background                                              was incomplete, and we noted a few instances in which the reviewer indicated
                                                         a lack of understanding of a review step. We generally did not see indications
                                                         of a second-level review of this documentation. FMI Oversight group
 The Federal Reserve System plays a vital role in
                                                         management, however, explained that the team meets during and after the
 the nation’s payment and settlement systems,
                                                         onsite review to ensure that needed work was performed during the review
 providing a variety of wholesale financial
                                                         and to examine and verify any observations in bullet point summaries and
 services, including the Fedwire Funds Service,
                                                         final reports.
 the Fedwire Securities Service, and the National
 Settlement Service. Reserve Banks’ wholesale
 financial services include payment and
 settlement systems that facilitate the exchange of      Recommendation
 payments and the settlement of transfers of funds
 or financial instruments totaling approximately         We are making one recommendation to enhance RBOPS’s oversight of the
 $4 trillion daily. The Dodd-Frank Wall Street           Reserve Banks’ wholesale financial services. We recommend that RBOPS
 Reform and Consumer Protection Act broadened            develop and document comprehensive formal policies and procedures to
 the Board’s supervisory authority over private          guide the execution and documentation of the onsite review of wholesale
 payment, clearing, and settlement systems               financial services, which should include a second-level review of onsite
 designated as systemically important financial          review documentation when necessary. In its response to a draft of our report,
 market utilities. Since the enactment of the act,       RBOPS generally concurred with our recommendation and noted it has
 RBOPS’s Financial Market Infrastructure                 initiated efforts to augment existing procedures and, if necessary, develop
 Oversight (FMI Oversight) group has worked to           new procedures that guide its onsite reviews of wholesale financial services.
 closely align its Reserve Banks’ wholesale
 financial services oversight processes with those
 applied in the supervision of designated financial
 market utilities.

Access the full report: http://oig.federalreserve.gov/reports/board-wholesale-financial-services-onsite-reviews-sep2014.htm
For more information, contact the OIG at 202-973-5000 or visit http://oig.federalreserve.gov.
Summary of Recommendation, OIG Report No. 2014-FMIC-B-014
  Rec. no.   Report page no.                  Recommendation                           Responsible office
    1             10           Develop and document comprehensive formal            Division of Reserve Bank
                               policies and procedures to guide the execution            Operations and
                               and documentation of the onsite review of                Payment Systems
                               wholesale financial services, which should include
                               a second-level review of onsite review
                               documentation when necessary.
September 30, 2014

MEMORANDUM

TO:             Louise Roseman
                Director, Division of Reserve Bank Operations and Payment Systems
                Board of Governors of the Federal Reserve System

FROM:           Melissa Heist
                Associate Inspector General for Audits and Evaluations

SUBJECT:        OIG Report No. 2014-FMIC-B-014: Opportunities Exist to Enhance the Onsite Reviews
                of the Reserve Banks’ Wholesale Financial Services

The Office of Inspector General has completed its final report on the subject audit. We conducted this
audit to assess the extent and effectiveness of the Board of Governors of the Federal Reserve System’s
Division of Reserve Bank Operations and Payment Systems’ (RBOPS) oversight of Federal Reserve
Banks’ wholesale financial services. Specifically, our review focused on the Financial Market
Infrastructure Oversight group’s onsite review activities for wholesale financial services.

Our report contains one recommendation designed to enhance RBOPS’s oversight of the Reserve Banks’
wholesale financial services. In your response to our draft report, you generally concurred with our
recommendation and indicated that you have initiated efforts to augment existing procedures and, if
necessary, develop new procedures that guide your onsite reviews of wholesale financial services. We
have included your response as appendix C in our report.

We appreciate the cooperation that we received from staff of the Financial Market Infrastructure
Oversight, Oversight Program Management, and Information Technology groups in RBOPS, as well as
the responsible Federal Reserve Banks. Please contact me if you would like to discuss this report or any
related issues.

cc:   Jeffrey Marquardt
      Stuart Sperry
      William Mitchell
      J. Anthony Ogden
Contents



Introduction ................................................................................................................. 1

     Objectives ................................................................................................................. 1
     Background............................................................................................................... 1
        Wholesale Financial Services.............................................................................. 1
        Wholesale Financial Services Management ........................................................ 3
        Wholesale Financial Services Guidance ............................................................. 3
        Oversight of the Federal Reserve Banks’ Wholesale Financial Services ............. 4

Finding: The FMI Oversight Group Needs to Formalize Its Policies and
Procedures That Guide the Execution of Its Oversight Responsibilities ....... 8

     The FMI Oversight Group Uses Informal Procedures to Guide the Execution of
       Its Oversight Responsibilities .............................................................................. 8
     Recommendation .................................................................................................... 10
     Management’s Response ...................................................................................... 10
     OIG Comment......................................................................................................... 10

Appendix A: Scope and Methodology ................................................................. 11

Appendix B: Federal Reserve Bank Review Findings Severity Levels ......... 12

Appendix C: Management’s Response ............................................................... 13
Introduction



Objectives
          The Federal Reserve System comprises the Board of Governors of the Federal Reserve System
          (Board) and the 12 Federal Reserve Banks (Reserve Banks). As the central bank of the United
          States, part of the Federal Reserve System’s mission is to maintain the stability of the nation’s
          financial system and contain systemic risk that may arise in financial markets.

          The Reserve Banks provide retail 1 and wholesale 2 financial services to participants that include
          depository institutions, the U.S. government, and foreign institutions. These services include key
          wholesale payment and settlement systems identified as financial market infrastructures (FMIs). 3
          FMIs are the backbone of the global financial system and, if not properly managed, can be
          sources of shock to domestic and international financial markets. As such, our audit focused on
          the Reserve Banks’ wholesale financial services.

          The Board’s Division of Reserve Bank Operations and Payment Systems (RBOPS) is
          responsible for overseeing the policies and operations of the Reserve Banks. Our objective for
          this audit was to assess the extent and effectiveness of RBOPS’s oversight of the Reserve Banks’
          wholesale financial services. Our scope and methodology are detailed in appendix A.


Background
          Wholesale Financial Services

          Wholesale financial services include payment and settlement systems that facilitate the exchange
          of payments and the settlement of transfers of funds or financial instruments. The Reserve Banks
          operate three wholesale payment and settlement systems: the Fedwire Funds Service, the
          Fedwire Securities Service, and the National Settlement Service (NSS). These services enable
          their participants to transfer funds, record book-entry securities, 4 and settle obligations. As
          depicted in table 1 below, the Reserve Banks’ wholesale financial services involve trillions of
          dollars and thousands of financial institutions each day.

1.   Retail payments generally are for relatively small dollar amounts and often involve a depository institution’s retail clients—
     individuals and smaller businesses. The Reserve Banks’ retail services include collecting checks and electronically
     transferring funds through the automated clearinghouse system. A clearinghouse is an establishment maintained by banks
     for settling mutual claims and accounts.

2.   Wholesale payments generally are for large dollar amounts and often involve a depository institution’s large corporate
     customers or counterparties, including other financial institutions.

3.   An FMI is a multilateral system for clearing, settling, or recording payments, securities, derivatives, or other financial
     transactions. Multiple financial institutions participate in a single FMI.

4.   Ownership of book-entry securities is not physically transferred but is recorded electronically on the books of the
     depository institutions where owners maintain accounts.




2014-FMIC-B-014                                                                                                                   1
       Table 1: Federal Reserve System Wholesale Financial Services Statistics
                                                                      Average number of            Average
        Service                  Participants
                                                                      transfers/day                value/day
        Fedwire Funds            6,500 customers                      535,000                      $2.8 trillion
        Fedwire Securities       5,500 active customers               76,000                       $1.2 trillion
        NSS                      17 settlement arrangements           40 settlement files          $69 billion
       Source: OIG compilation based on information on the Board’s public and internal websites.
       Note: Figures represent the annual average in 2013.




       Fedwire Funds Service

       The Fedwire Funds Service settles payments that typically are large in value and time critical.
       The Fedwire Funds Service processes funds transfers immediately upon receipt. Once processed,
       payments are final and irrevocable. Participants in the Fedwire Funds Service send and receive
       payments through a master account held with a Reserve Bank. These funds transfers are highly
       concentrated, with the top 10 participants accounting for approximately 70 percent of the total
       value.

       Fedwire Funds Service participants submit transfer instructions either online or offline. The
       Fedwire Funds Service processes online transfer instructions without manual intervention;
       offline participants submit instructions by calling the Reserve Banks’ Wholesale Operations Site.
       Offline participants pay more because their transactions are processed manually.


       Fedwire Securities Service

       The Fedwire Securities Service transfers, settles, and maintains securities issued by the
       U.S. Treasury, federal government agencies, government-sponsored enterprises, and some
       international organizations. The Fedwire Securities Service manages electronic transfer of book-
       entry securities between participants and processes settlements in accounts held on the books of
       the Reserve Banks. The Fedwire Securities Service also maintains electronic storage of securities
       records and processes principal and interest payments.

       Fedwire Securities Service transactions are also highly concentrated; the top 25 participants
       generate more than 90 percent of the volume and value. In particular, transactions by the top 2
       participants account for over 60 percent of the volume and value transferred across the Fedwire
       Securities Service. Fedwire Securities participants submit transfer instructions in the same
       manner as Fedwire Funds participants.


       National Settlement Service

       The NSS facilitates settlement for private-sector groups, such as check clearinghouse
       associations and automated clearinghouse networks. Multiple parties participate in settlement
       arrangements processed by the NSS. A single settlement agent from a group submits a settlement
       file on behalf of the group participants to the NSS. The NSS settles participant accounts at the
       Reserve Banks per instructions in the settlement file. The NSS offers an offline service only
       when a settlement agent’s online transmission is unavailable.


2014-FMIC-B-014                                                                                                    2
         Wholesale Financial Services Management

         The Wholesale Product Office (WPO) at the Federal Reserve Bank of New York has
         management responsibilities for the Reserve Banks’ wholesale financial services and, in this
         role, sets strategic direction and centrally manages wholesale operations. The WPO also ensures
         Reserve Bank compliance with its standard operating procedures, and it receives application
         development, audit, legal, and research support from the Federal Reserve Bank of New York.

         Wholesale Operations Sites, located within certain Federal Reserve Banks, support wholesale
         financial services through a split operations program in which each responsible location routinely
         supports the others’ offline transactions and also provides backup for system resilience. These
         split operations are designed to appear seamless to customers.

         The Central Electronic Payment Systems Central Business Administration Function monitors
         day-to-day operations of wholesale financial services to ensure their safety and soundness. The
         Central Electronic Payment Systems Central Business Administration Function schedules, tests,
         and authorizes changes to the production and test systems. It also ensures the availability of the
         Fedwire Funds Service, the Fedwire Securities Service, and the NSS according to business
         requirements and service agreements.

         Wholesale Testing Units support the depository institution testing environments in which
         developers test applications such as future releases and emergency fixes. The Wholesale Testing
         Units also train new Fedwire customers, troubleshoot, and perform contingency tests.


         Wholesale Financial Services Guidance

         Multiple rules and regulations govern the Reserve Banks’ wholesale financial services. The
         WPO sets forth its standard operating procedures, which are guidelines for the management,
         administration, and operations of wholesale financial services. The Reserve Banks’ operating
         circulars 5 also provide the legal terms for, and govern the use of, Reserve Bank financial
         services. Wholesale financial services are subject to additional standards and supervision as
         discussed below.

         The management and operations of the Reserve Banks’ wholesale financial services are guided
         by the risk-management policies in the Federal Reserve Policy on Payment System Risk (PSR
         policy). The Board developed the PSR policy to ensure the safety and efficiency of payment and
         settlement systems. The PSR policy applies to payment and settlement systems, such as the
         Reserve Banks’ wholesale financial services, that are expected to settle a daily aggregate value of
         U.S. dollar–denominated transactions exceeding $5 billion on any day during the following
         12-month period. The PSR policy incorporates international principles that emphasize an
         effective risk-management framework, including (1) clear identification of risks, (2) sound
         governance, (3) clear and appropriate rules and procedures, and (4) employment of the necessary
         resources. The WPO follows the PSR policy in its management of wholesale financial services.

5.   Federal Reserve Bank financial services are governed by the terms and conditions set forth in applicable operating
     circulars. In particular, Operating Circular 6 applies to funds transfers made through the Fedwire Funds Service, Operating
     Circular 7 contains the terms of book-entry securities account maintenance and transfer services, and Operating Circular 12
     discusses the terms of settlement services through the NSS.




2014-FMIC-B-014                                                                                                            3
          The Board has published for comment revisions to its PSR policy. These revisions closely align
          with the proposed enhanced standards for Board-supervised private-sector financial market
          utilities (FMUs) 6 designated as systemically important by the Financial Stability Oversight
          Council 7 under Title VIII of the Dodd-Frank Wall Street Reform and Consumer Protection Act
          (Dodd-Frank Act), entitled the Payment, Clearing, and Settlement Supervision Act of 2010. The
          purposes of Title VIII are to mitigate systemic risk in the financial system and to promote
          financial stability through enhanced supervision of designated FMUs. Although only designated
          FMUs are subject to provisions of Title VIII, the Board, in a July 2012 press release, recognized
          the vital role that Fedwire services play in the U.S. financial system. In that statement, the Board
          reaffirmed that it holds Fedwire services to supervision standards that are comparable to or that
          exceed those for designated FMUs.


          Oversight of the Federal Reserve Banks’ Wholesale Financial
          Services

          The Federal Reserve System plays an important role in the nation’s payment systems by
          providing wholesale financial services to depository institutions. Participants use the Federal
          Reserve’s wholesale financial services to exchange an average daily value of approximately
          $4 trillion. Multiple parties within the Federal Reserve System, as described below, are involved
          in the oversight of wholesale financial services. Those parties routinely scrutinize the operations
          and risk-management practices of wholesale financial services to ensure their safety and
          effectiveness.

          RBOPS is responsible for the oversight of Reserve Bank operations, including overseeing and
          monitoring various aspects of wholesale financial services. Within RBOPS, the Oversight
          Program Management group is responsible for the overall onsite review process for the Reserve
          Banks. As such, the Oversight Program Management group coordinates onsite reviews with
          respective Reserve Bank operations as well as with sections within RBOPS. 8 The FMI Oversight
          group within RBOPS supports the Board in meeting its statutory responsibilities under the
          Federal Reserve Act 9 for oversight of the Reserve Banks’ wholesale financial services, as well as
          under Title VIII of the Dodd-Frank Act for supervision of the private-sector FMUs designated as
          systemically important.




6.   FMUs are multilateral systems that provide the infrastructure for transferring, clearing, and settling payments, securities,
     and other financial transactions among financial institutions. The terms FMU and FMI are often used interchangeably.

7.   In 2012, the Financial Stability Oversight Council designated eight private-sector FMUs as systemically important under
     Title VIII of the Dodd-Frank Wall Street Reform and Consumer Protection Act, titled the Payment, Clearing, and
     Settlement Supervision Act of 2010. The Board is the supervisory agency for two of these private-sector FMUs.

8.   A Reserve Bank review typically includes, among other things, reviews of business areas such as business continuity, cash,
     human resources, discretionary expenditures, facilities management, financial accounting, and information technology.

9.   The Federal Reserve Act authorized and empowered the Board to exercise general supervision over the Federal Reserve
     Banks. The Board has delegated oversight responsibility to the Director of RBOPS (or the Director’s designee) in certain
     circumstances.




2014-FMIC-B-014                                                                                                               4
          Within the FMI Oversight group, the wholesale oversight team10 oversees the Reserve Banks’
          wholesale financial services and works closely with officials and staff at the WPO to
          continuously monitor activities and conduct onsite reviews. 11 The wholesale oversight team
          communicates frequently with the WPO, performing ongoing monitoring through monthly calls
          to discuss current issues, receiving status updates on operations and weekly status reports for
          certain projects, and holding ad hoc teleconferences. These communications are intended to
          enable the oversight team to gain critical knowledge of the WPO’s management and operations
          of wholesale financial services. In addition, the team has an annual supervisory plan for its
          reviews of wholesale financial services. These oversight activities are conducted in close
          coordination with other responsible parties. As an example, the Information Technology section
          within RBOPS participates in the oversight of wholesale financial services. The Reserve Banks’
          General Auditors also conduct audits on wholesale financial services at their respective Reserve
          Banks.


          Reviews of Wholesale Financial Services

          The oversight of wholesale financial services has evolved to reflect the changing environment of
          payment, clearing, and settlement systems. The Board’s decision to align its supervision of the
          Fedwire services with that of designated FMUs resulted in changes to the wholesale oversight
          team’s approach in its supervision of Fedwire services. For example, historically, reviews of
          wholesale financial services were conducted as a part of the triennial geographical review of the
          relevant Reserve Bank. The FMI Oversight group now carries out annual reviews of wholesale
          financial services to align with the Title VIII requirement that supervisory agencies conduct
          annual examinations of designated private-sector FMUs. These reviews assess functions of
          wholesale services, regardless of where the particular functions are performed, and may involve
          more than one Reserve Bank.


          Review Planning

          The wholesale oversight team employs a risk-based planning process to identify risks in the
          operation and governance of wholesale financial services, which is consistent with the process
          examiners use to supervise private-sector FMUs. The team uses this process to (1) identify areas
          of supervisory focus and (2) prioritize and organize those areas into supervisory activities. The
          process incorporates the risk-management framework from the PSR policy and international
          principles. The team employed this process to plan its onsite review schedule for 2012 and 2013.




10. The wholesale oversight team, which consisted of three staff members, had increased to four staff members as of
    June 2014, after we completed our fieldwork.

11. RBOPS is organized into sections that focus on distinct but related issues that generally align with financial services and
    support functions at the Reserve Banks, such as information technology, accounting, fiscal agency services, and retail
    services.




2014-FMIC-B-014                                                                                                              5
         Review Processes

         After identifying areas of supervisory focus and corresponding objectives and review plans, the
         wholesale oversight team works with the RBOPS Oversight Program Management group in
         preparing and conducting onsite reviews. The Oversight Program Management group is
         responsible for the overall review process and coordinates review logistics with Reserve Banks
         as well as other RBOPS review teams that conduct reviews of different business areas.

         The wholesale oversight team obtains necessary information in advance to plan its onsite review
         procedures. Once onsite, the team spends about a week conducting its review. While onsite, the
         wholesale oversight team meets regularly with Reserve Bank staff members to discuss the status
         of the review. Additionally, the team holds a status meeting at the conclusion of its onsite visit
         and provides observation bullet points.

         After the onsite visit, the wholesale oversight team completes its review and drafts a report. Each
         team member drafts his or her review section. The team then compiles the sections into one draft
         and submits the draft to FMI Oversight management. After management’s review, the draft is
         submitted to the Oversight Program Management group. The Oversight Program Management
         group combines drafts from the wholesale oversight team and other RBOPS review teams that
         conducted their reviews concurrently.

         The Oversight Program Management group schedules a senior management meeting with
         RBOPS officers, managers, project leaders, and some team members to discuss review findings.
         Each review team presents its review results and findings in the meeting, and senior management
         assesses the team’s work and the resulting findings. Based on the results of the meeting, the
         review team will update or revise the findings as necessary. After Reserve Bank officials conduct
         a fact-checking review of the initial draft report, the Oversight Program Management group
         sends the official draft report to Reserve Bank officials for their review and finalizes the report
         after receiving the Reserve Bank officials’ comments. The review process is depicted in figure 1.


Figure 1: Review Process

                                                                                             Send draft
                                                                                                for
   Request                     Complete                        RBOPS                        comment to
   advance                      review                      officials vet                     Reserve
 information                    offsite                       findings                         Bank




                 Conduct                     Draft report                    Send draft                   Finalize
                  onsite                                                     to Reserve                   report
                  review                                                    Bank for fact
                                                                                check



Source: OIG generated based on interviews with RBOPS staff and officials.




2014-FMIC-B-014                                                                                                      6
          Review Findings

          Review findings are tracked and monitored by multiple parties. Within RBOPS, the Oversight
          Program Management group is responsible for tracking review findings. The Oversight Program
          Management group tracks the status of review findings with a system called Issue Tracker. Staff
          members from the Oversight Program Management group enter review findings into the system
          and update the information as necessary. Depending on the severity level of findings, either
          RBOPS or the General Auditor, or both, may follow up on the findings. RBOPS can clear any
          findings, whereas the General Auditor can only close severity level 2 or 3 findings with
          RBOPS’s concurrence. 12 General Auditors also have access to Issue Tracker and are responsible
          for reporting the status of the findings to the Oversight Program Management group quarterly.
          The wholesale oversight team tracks the status of findings through its frequent communication
          with the WPO and closely monitors the progress of findings resolution.




12. See appendix B for the description of the severity levels of review findings.




2014-FMIC-B-014                                                                                      7
Finding: The FMI Oversight Group Needs to Formalize
Its Policies and Procedures That Guide the Execution of
Its Oversight Responsibilities


         The FMI Oversight group uses a risk-based planning process, as well as the PSR policy and
         Reserve Bank Financial Services operating circulars, for guidance when assessing wholesale
         financial services. However, the wholesale oversight team within the FMI Oversight group does
         not have comprehensive formal policies and procedures that guide the execution and
         documentation of its onsite review of wholesale financial services. We found that a small
         percentage of onsite review documentation was incomplete, and we noted a few instances in
         which the reviewer indicated that he or she did not understand what a review step meant. In
         addition, we generally did not see indications of a second-level review of onsite review
         documentation. The Standards for Internal Control in the Federal Government, issued by the
         Comptroller General of the United States, offers guidance related to documenting and
         supervising oversight activities and lists policies and procedures as control activities that enforce
         management’s directives. Additionally, the Internal Control—Integrated Framework, published
         by the Committee of Sponsoring Organizations of the Treadway Commission (COSO), 13
         discusses policies and procedures as control activities to establish clear responsibility and
         accountability. While the FMI Oversight group has begun to formalize procedures,
         comprehensive formal policies and procedures are not yet available because the group’s
         enhanced review process is still evolving and the group had limited resources to support a
         formalization effort. We did not note any deficiencies regarding the efficiency and effectiveness
         of the FMI Oversight group’s onsite review activities; however, we believe formal written
         policies and procedures would help promote the quality and consistency of oversight and ensure
         that new staff members understand and meet their responsibilities more quickly. Further,
         incorporating guidance from the Standards for Internal Control in the Federal Government into
         a more formalized process, as appropriate, may yield benefits, including standardizing
         information capture to build institutional knowledge, refining subsequent onsite review activities,
         and enhancing support for findings.


The FMI Oversight Group Uses Informal Procedures to Guide the
Execution of Its Oversight Responsibilities
         The FMI Oversight group has informal procedures for review processes, and it uses policies such
         as the PSR policy and operating circulars to guide its review work and related assessments;
         however, the team does not have comprehensive formal policies and procedures that describe
         procedural steps for conducting the onsite review of wholesale financial services. The wholesale
         oversight team members provided us with the templates used for onsite examinations and were
         able to explain to us the informal process for the use of onsite documentation and for the


13. COSO’s internal control framework is widely used and recognized as a leading framework for designing, implementing,
    and evaluating the effectiveness of internal control. It integrates various internal control concepts into a framework in
    which a common definition is established and control components are identified. COSO’s internal control framework was
    updated in May 2013 with a transition period ending December 15, 2014.




2014-FMIC-B-014                                                                                                          8
       selection of a subject-matter expert for a review, but they could not provide comprehensive
       formal procedures.

       When conducting onsite reviews of wholesale financial services, the wholesale oversight team
       within the FMI Oversight group completes documentation, which includes interview guides and
       write-ups from interviews and meetings with WPO management, sample testing results for
       Wholesale Operations Site operations, and templates with various work steps. While work steps
       in the templates describe the onsite review activities to be completed, the team does not have
       written formal guidance for completing, maintaining, and approving those templates.

       For our audit, the FMI Oversight group provided us 59 documents associated with the 2011 and
       2012 wholesale financial service onsite reviews. Templates accounted for slightly less than
       one-third (18) of the 59 documents. We found that 8 of the 18 review templates were incomplete;
       there was no documentation to evidence that 37 of the 179 review steps included in these 8
       templates were completed by an analyst. We also identified documentation for a few of the tests
       conducted during the 2011 review in which the analyst responded to a work step with an
       explanation that he or she did not understand what the work step meant. We did not find these
       issues with the remaining 41 documents. However, we did not see any indication of a system of
       formal second-level review for onsite review documentation, and we were unable to find records
       or evidence to support that a second-level review of the onsite review documentation took place.

       The Standards for Internal Control in the Federal Government lists policies and procedures as
       control activities. Control activities are an important tool for ensuring that actions are taken to
       address risks that occur at all levels, and they include a wide range of diverse activities, such as
       approval, authorization, verification, and maintenance of records showing appropriate
       documentation. The Standards for Internal Control in the Federal Government states that
       policies and procedures ensure an entity’s accountability for achieving effective results. It further
       states that management is responsible for developing the detailed policies, procedures, and
       practices that are built into the agency’s operations. Additionally, the COSO framework
       discusses policies and procedures as control activities and states that policies establish what is
       expected and procedures put policies into action. Although the COSO framework acknowledges
       that unwritten policies can be effective in certain environments, it cautions that unwritten
       policies and procedures can be easier to circumvent and can be costly to the organization if there
       is turnover in personnel.

       According to the FMI Oversight group, the group does not have a formal process for onsite
       review documentation or internal requirements for a second-level review of the documentation.
       The FMI Oversight group stated that its workpapers are used to inform and document the review
       write-up. FMI Oversight officials further explained that the incomplete steps we found were not
       applicable to the specific review procedures being conducted at that time. An FMI Oversight
       staff member stated that certain tests may not have made sense once the review team was onsite
       at the bank, and thus the reviewer may have left the work step blank or written that he or she did
       not understand the meaning of the work step. FMI Oversight group management also stated that
       the team has numerous meetings during and after the onsite review to ensure that needed work
       was performed during the review and to examine and verify any observations.

       The FMI Oversight group has begun to establish procedures that include a working draft of an
       overview document of recurring responsibilities within the FMI Oversight function. According
       to an RBOPS official, the FMI Oversight group is currently defining policies and procedures.
       The ongoing evolution of review procedures and limited staff resources prevented the FMI



2014-FMIC-B-014                                                                                        9
       Oversight group from formalizing all its policies and procedures. An FMI Oversight official
       stated that the group’s goal was to start formalizing policies and procedures in 2014.

       While we recognize that RBOPS is not a traditional audit organization, we believe that the FMI
       Oversight group can improve its oversight by enhancing and formalizing its policies and
       procedures. Written policies and procedures specific to the oversight of wholesale financial
       services, including formalized review documentation procedures, can help ensure consistency
       within the team throughout the review process and in ongoing monitoring. Additional benefits
       include helping new staff to understand and meet their responsibilities more quickly. Further, we
       believe that a formal process that incorporates a second-level review of workpapers could ensure
       the completeness, quality, and consistency of work performed and concrete support or evidence
       for the review findings.


Recommendation
       We recommend that the Director of RBOPS

           1. Develop and document comprehensive formal policies and procedures to guide the
              execution and documentation of the onsite review of wholesale financial services, which
              should include a second-level review of onsite review documentation when necessary.


Management’s Response
       The Director of RBOPS generally concurs with this recommendation. In her response, the
       Director noted that RBOPS is not a traditional audit organization and does not derive its
       oversight practices from conventional audit standards. The Director stated, however, that RBOPS
       agrees with the benefits associated with enhancing its oversight procedures and has initiated
       efforts to augment existing procedures and, if necessary, develop new procedures that guide its
       onsite reviews of wholesale financial services.


OIG Comment
       We believe that the actions described by RBOPS are responsive to our recommendation. The
       OIG intends to follow up on RBOPS’s actions to ensure that the recommendation is fully
       addressed.




2014-FMIC-B-014                                                                                   10
Appendix A
Scope and Methodology


       Our overall objective for this audit was to assess the extent and effectiveness of RBOPS’s
       oversight of the Reserve Banks’ wholesale financial services. Specifically, we reviewed how
       RBOPS assesses wholesale financial services against the standards defined in the PSR policy to
       determine whether the systems incorporate (1) an appropriate risk-management framework and
       (2) the international principles and recommendations in their policies and procedures.

       We used the guidelines in the Standards for Internal Control in the Federal Government, issued
       by the Comptroller General of the United States, as well as COSO’s Internal Control—
       Integrated Framework, to assess RBOPS’s oversight.

       To accomplish our overall objective, we reviewed the PSR policy; applicable sections of the
       Federal Reserve Act; Title VIII of the Dodd-Frank Act, the Payment, Clearing, and Settlement
       Supervision Act of 2010; WPO’s standard operating procedures; the Federal Reserve
       Administration Manual; and relevant Federal Reserve Bank Financial Services operating
       circulars.

       We evaluated RBOPS’s documentation, including Reserve Bank review observation bullets,
       final reports, and review documentation; training program information; and risk-based planning
       process information. We interviewed relevant RBOPS staff members within the FMI Oversight,
       Oversight Program Management, and Information Technology groups and wholesale financial
       services’ officials and General Auditors at the responsible Federal Reserve Banks.

       The scope of our audit included RBOPS’s onsite reviews of wholesale financial services for the
       calendar years 2011 and 2012. We selected these years, and reviewed all associated
       documentation, because RBOPS changed its oversight approach for wholesale financial services
       from its triennial geographical approach to an annual functional approach in 2012.

       We conducted our audit fieldwork from May 2013 to November 2013. We conducted this
       performance audit in accordance with generally accepted government auditing standards. Those
       standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
       provide a reasonable basis for our findings and conclusions based on our audit objective. We
       believe that the evidence obtained provides a reasonable basis for our finding and conclusions
       based on our audit objective.




2014-FMIC-B-014                                                                                     11
Appendix B
Federal Reserve Bank Review Findings Severity Levels


       Each review finding or issue is classified using numeric rankings of 1 through 4, which are
       defined as follows:

           •   Severity Level 1: These issues are considered highly significant. They warrant
               immediate action and senior management attention and are only closed by RBOPS.
               Reserve Bank General Auditors report to RBOPS the status of these issues quarterly.

           •   Severity Level 2: These issues are considered significant and warrant prompt action and
               management attention. After consultation with RBOPS, Reserve Bank General Auditors
               may close these issues. General Auditors report to RBOPS the status of these issues
               quarterly. RBOPS follows up on severity level 2 issues as appropriate.

           •   Severity Level 3: These issues are less significant and may be closed by Reserve Bank
               General Auditors with RBOPS concurrence. General Auditors report to RBOPS the
               status of these issues quarterly. RBOPS follows up on these issues in its Reserve Bank
               review cycle.

           •   Severity Level 4: These issues are considered observations. Reserve Bank General
               Auditors follow up on a discretionary basis. RBOPS follows up on these issues in its
               review cycle unless General Auditors follow up on the issues and report them as closed.




2014-FMIC-B-014                                                                                      12
Appendix C
Management’s Response




2014-FMIC-B-014         13
